DOE/IG-0520




   AUDIT                         PEER-REVIEWED SCIENTIFIC
                              LITERATURE GENERATED AT THE
  REPORT                      DEPARTMENT’S LIGHT SOURCES




                                            AUGUST 2001




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                       U. S. DEPARTMENT OF ENERGY
                             Washington, DC 20585

                                   August 31, 2001



MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                INFORMATION: Audit Report on "Peer-Reviewed Scientific
                        Literature Generated at the Department's Light Sources"

BACKGROUND

The Department of Energy (Department) operates four light source facilities which are
used to conduct experiments in disciplines such as chemistry, biology, and physics. In
Fiscal Year (FY) 2000, the light sources, located at Argonne National Laboratory,
Brookhaven National Laboratory, Lawrence Berkeley National Laboratory, and the
Stanford Linear Accelerator Center, received $172 million in funding and served over
5,000 users. Research performed at the light sources resulted in the publication of over
540 peer-reviewed scientific journal articles in FY 2000.

For Department-sponsored research performed at these facilities, the Department's Office
of Scientific and Technical Information (OSTI) is responsible for collecting and
preserving the resulting scientific and technical information and, most importantly,
making the information readily available to the public and to the general science
community. To accomplish its mission, OSTI established agreements with 35 publishers
to receive abstracts of articles relevant to the Department's scientific community, as well
as information that was developed as the result of Government-sponsored research.
When received from the publishers, OSTI enters these abstracts into a database entitled
PubSCIENCE. Researchers throughout the scientific community can access this database
to search for peer-reviewed journal articles in the physical sciences and other energy-
related disciplines.

The objective of this audit was to determine if abstracts of peer-reviewed scientific
journal articles generated from work performed at the Department's light sources were
available for public dissemination through OSTI.
                                             2




RESULTS OF AUDIT

Only 44 percent of the abstracts associated with the research performed at the
Department’s light source laboratories in FY 2000 was available for public dissemination
through OSTI. The audit disclosed that the abstracts were not available because the
Department had not established adequate procedures to ensure that peer-reviewed journal
literature for research performed at the light sources was collected in OSTI’s
PubSCIENCE database. Specifically, we found that the laboratories, although required to
do so, did not notify OSTI of available peer-reviewed journal articles. Thus, OSTI
lacked a comprehensive listing of relevant journal articles that would have served as a
baseline to confirm the accuracy and completeness of the PubSCIENCE database.
Secondly, even if the requisite information had been provided by the laboratories, OSTI
had no systematic methodology for reconciling research articles which it had reason to
anticipate would be in PubSCIENCE and those which were actually included in the
database. It is difficult to determine the precise impact of the lack of a complete record in
PubSCIENCE. However, based on the Department’s objectives for the OSTI program, it
is clear that researchers may not have had full and ready access to valuable government-
sponsored research information and that scientific advancement was not fully promoted.

MANAGEMENT REACTION

Management concurred with the finding and the recommendations included in the report
and agreed to initiate corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Acting Director, Office of Science
PEER-REVIEWED SCIENTIFIC LITERATURE GENERATED AT THE
DEPARTMENT'S LIGHT SOURCES


TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective ..........................................................1

                  Conclusions and Observations.................................................. 2


                  Abstracts Missing from Database

                  Details of Finding.......................................................................3

                  Recommendations and Comments ...........................................4


                  Appendix

                  Scope and Methodology.............................................................6
OVERVIEW

INTRODUCTION AND   The Department of Energy (Department) operates four light sources
OBJECTIVE          that are national user facilities which provide varying intensities of light
                   and are used to conduct experiments in disciplines such as chemistry,
                   biology, and physics. The light sources are located at Argonne National
                   Laboratory (ANL), Brookhaven National Laboratory (BNL), Lawrence
                   Berkeley National Laboratory (LBNL), and the Stanford Linear
                   Accelerator Center (SLAC). The light sources received $172 million in
                   funding and served over 5,000 users in Fiscal Year (FY) 2000.
                   Research performed at the light sources resulted in the publication of
                   over 540 peer-reviewed scientific journal articles in FY 2000.

                   The Department's Office of Scientific and Technical Information
                   (OSTI) is responsible for collecting, preserving, and making scientific
                   and technical information resulting from Department-sponsored
                   research available to the public. To accomplish the collection,
                   preservation, and dissemination of information contained in peer-
                   reviewed scientific journals, OSTI establishes agreements with
                   publishers (35 at the time of our audit) to receive abstracts of articles
                   relevant to the Department's scientific community, as well as
                   information that was developed as the result of Government-sponsored
                   research. When received from the publishers, these abstracts are
                   entered into a database entitled PubSCIENCE. The database is a World
                   Wide Web service for searching and accessing peer-reviewed journal
                   articles in the physical sciences and other energy-related disciplines.
                   Prior to establishing agreements with publishers, OSTI utilized
                   abstracting and indexing contractors to obtain this information.
                   However, this method was discontinued due to funding cuts.

                   In June 1997, the Office of Inspector General (OIG) issued Report
                   DOE/IG-0407, Audit of the Department of Energy's Scientific and
                   Technical Information Process. The audit determined that the
                   Department had not implemented effective mechanisms to identify,
                   collect, and disseminate scientific and technical information because
                   expected deliverables had not been identified at the beginning of
                   research projects. Currently, an OIG audit is being performed at the
                   Environmental Molecular Sciences Laboratory to evaluate whether all
                   scientific and technical information is being identified and reported by
                   the Department's contractor.

                   The objective of this audit was to determine if abstracts of peer-
                   reviewed scientific journal articles generated from work performed at
                   the Department's light sources were available for public dissemination
                   through OSTI.


Page 1                                                          Introduction and Objective
CONCLUSIONS AND   Only 44 percent of abstracts of peer-reviewed scientific journal articles
OBSERVATIONS      generated from work performed at the Department's light sources in
                  FY 2000 were available for public dissemination through OSTI. The
                  abstracts were not available because OSTI did not establish procedures
                  to ensure that peer-reviewed journal literature for research performed at
                  the light sources was collected in the PubSCIENCE database. As a
                  result, scientific advancement was not fully promoted, and research and
                  development efforts are more likely to be duplicated, because scientists
                  are not aware of research already performed. Also, although the
                  Department reported it exceeded its performance target to increase the
                  availability of all scientific and technical information (reports, journal
                  articles, and preprints) by 25 percent from FY 1999 to FY 2000, our
                  review indicated that the availability of peer-reviewed journal articles
                  generated at the light sources had decreased.

                  This audit identified significant issues that management should consider
                  when preparing its yearend assurance memorandum on internal controls.




                                                                  Signed
                                                        Office of Inspector General




Page 2                                                    Conclusions and Observations
ABSTRACTS MISSING FROM DATABASE


PubSCIENCE Did Not       Not all peer-reviewed scientific journal abstracts generated from work
Include Abstracts of     performed at the Department's light sources were available for public
All Peer-Reviewed        dissemination through OSTI. In fact, only 44 percent of the abstracts of
Scientific Journal       peer-reviewed journal articles generated in FY 2000 were collected in
Articles                 OSTI's PubSCIENCE database. The following table shows the number
                         of articles published in FY 2000 and the corresponding number of
                         abstracts included in PubSCIENCE for each of the Department's light
                         sources.

                                          Peer-Reviewed Scientific Journal Articles

                                                 Articles        Abstracts in
                           Light Source         Published       PubSCIENCE            Percentage

                          BNL                       261               110                42
                          SLAC                      115                37                32
                          LBNL                      105                59                56
                          ANL                        65                32                49

                          Total                     546               238                44



Department's Policy Is   Departmental Order 241.1A, Scientific and Technical Information
to Make Scientific       Management, requires that scientific and technical information is
Abstracts Available to   identified, processed, disseminated, and preserved in a manner that
the Public               enables the scientific community and the public to locate and use the
                         unclassified and unlimited scientific and technical information resulting
                         from the Department's research and related endeavors. The Order
                         requires Department contractors to announce scientific and technical
                         information results to OSTI.

                         In accordance with the Government Performance and Results Act of
                         1993, the Department established a performance goal in its FY 2000
                         Performance Agreement to improve the management, dissemination,
                         sharing and use of scientific and technical information. In support of
                         this goal, the Department established a performance target in FY 2000
                         to increase the availability of all scientific and technical information,
                         which includes reports, preprints, and peer-reviewed scientific
                         literature, by 25 percent over FY 1999.




Page 3                                                                          Details of Finding
OSTI Did Not Establish      OSTI did not include abstracts of all articles in its PubSCIENCE
Procedures to Ensure All    database because it did not establish procedures to ensure that all
Abstracts Were in the       relevant abstracts for research performed at the light sources were
Database                    collected. The light sources maintain a bibliographic record of
                            journal article publications. Such records should be submitted to
                            OSTI for updating PubSCIENCE and determining which abstracts
                            have not been transmitted from the publishers. Identifying missing
                            abstracts through this reconciliation process would allow OSTI the
                            opportunity to request the abstracts of the articles from the publishers
                            and provide greater availability for the articles.

                            Although OSTI had established agreements with 35 publishers to
                            receive abstracts, some publishers refused to participate in
                            agreements with OSTI. Even though the publishers do not
                            participate, OSTI could obtain journal citation data from the light
                            sources and announce its availability in the PubSCIENCE.
                            Obtaining this data would improve OSTI's performance in meeting
                            dissemination and repository responsibilities for the scientific and
                            technical information.

Science Was Not Fully       As a result, scientific advancement was not fully promoted and
Promoted and Projects May   research and development efforts are more likely to be duplicated
Have Been Duplicated        because scientists were not aware of research already performed.
                            Also, although the Department reported it exceeded its performance
                            target to increase the availability of all scientific and technical
                            information (reports, journal articles, and preprints) by 25 percent
                            from FY 1999 to FY 2000, our review indicated that the availability
                            of peer-reviewed journal articles generated at the light sources had
                            decreased. A comparison of the number of peer-reviewed journal
                            articles, generated from the light sources and made available through
                            PubSCIENCE in FY 1999 and FY 2000, indicated that the number of
                            available articles decreased from 47 percent in FY 1999 to 44
                            percent in FY 2000. It should be noted, however, that the
                            Department's performance target measured the availability of all
                            types of scientific and technical information.

RECOMMENDATIONS             We recommend that the Director, Office of Scientific and Technical
                            Information establish procedures to:

                                1. Periodically update the PubSCIENCE database with
                                   bibliographic records made available by the light sources in
                                   accordance with Department Order 241.1A;




Page 4                                                      Recommendations and Comments
                          2. Identify and recover abstracts missing from PubSCIENCE
                             from those publishers having agreements with OSTI; and,

                          3. Collect and disseminate journal citation data from the light
                             sources for peer-reviewed articles not covered by publisher
                             agreements.

MANAGEMENT REACTION   Management concurred with the finding and recommendations. For
                      recommendation 1, management received assurance from the Office
                      of Basic Energy Sciences that appropriate steps will be taken to
                      make light source data available to OSTI so that the data can be
                      captured for PubSCIENCE. A memorandum will be transmitted in
                      the upcoming weeks to communicate this to the Department's
                      laboratories so that OSTI can begin obtaining the data in FY 2002.
                      For recommendation 2, management will implement quality
                      assurance procedures by mid-FY 2002 to ensure that abstracts from
                      publishers with which it has agreements are being included in
                      PubSCIENCE. Finally, for recommendation 3, management will
                      emphasize the requirement for journal citation data to the
                      Department's scientific and technical information points of contact
                      via an October 2001 teleconference, and also at the November 2001
                      Scientific and Technical Information Program meeting.
                      Subsequently, management will track receipts of journal articles in
                      FY 2002.


AUDITOR COMMENTS      Management's comments were responsive to the finding and
                      recommendations.




Page 5                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from November 14, 2000, to June 1, 2001, at
              the Argonne National Laboratory in Argonne, Illinois; Brookhaven
              National Laboratory in Upton, New York; the Lawrence Berkeley
              National Laboratory in Berkeley, California, and the Stanford Linear
              Accelerator Center in Stanford, California. The scope of the audit
              included the generation and collection of peer-reviewed scientific
              journal articles for FYs 1999 and 2000 by the Department's synchrotron
              radiation light sources, and the availability of that information through
              the Office of Scientific and Technical Information (OSTI).

              To accomplish the audit objective, we:
METHODOLOGY
                  • Researched Departmental regulations for scientific and technical
                    information;

                 •   Reviewed previous Office of Inspector General audit reports for
                     scientific and technical information;

                 •   Identified Department personnel with responsibilities for
                     collecting and disseminating scientific and technical
                     information;

                 •   Interviewed Department personnel regarding copyright law
                     implications for scientific and technical information;

                 •   Evaluated OSTI's performance in providing public access to
                     peer-reviewed scientific journal articles generated at the
                     Department's light sources in FYs 1999 and 2000; and,

                 •   Determined that performance measures were established in
                     accordance with the Government Performance and Results Act
                     of 1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our audit
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to achieve our audit objective.

              We held an exit conference with the Director, Project and Program
              Development, OSTI, on August 22, 2001.


Page 6                                                      Scope and Methodology
                                                                             IG Report No. : DOE/IG-0520

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
